In the
Supreme Court of the United States
Heather Stanton (F/K/A
Heather Sembrat,

)
)
)
)
)

Respondent,

v.

) Docket No.
)
)
)
)
)

Kevin Sembrat,
Petitioner-Appellant,

PROOF OF SERVICE
I, Kevin A. Sembrat, Esquire, do swear and declare that on this date,
December
. 2020, as required by Supreme Court Rule 29, I have served the
enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS and
PETITION FOR A WRIT OF CERTIORARI on each party to the above
proceeding or that party’s counsel, and on every other person required to be
served, by depositing an envelope containing the above documents in the United
States mail properly addressed to each of them and with first-class postage
prepaid, or by delivery to a third-party commercial carrier for delivery within 3
calendar days.
The names and addresses of those served are as follows:
2. Clerk
Supreme Court of the United States
Washington, DC 20543

1. Heather Stanton
120 Orben Drive
Landing, NJ 07850

I declare under penalty of perjury that the foregoing is true and correct.

Executed on December

t

2020

Kevin A. Sembrat, Esquire
Counsel of Record!
Petitioner, pro se
tMember of the Bar of the
Supreme Court of the United States

-12-

